                             Department of the Interior
                             Office of Inspector General




           AUDIT REPORT



                U.S. Fish and Wildlife Service
             Federal Assistance Program Grants
               Awarded to the State of Maine,
              Department of Marine Resources,
     From January 1, 2004, Through December 31, 2005




Report No. R-GR-FWS-0015-2005                 April 2007
                   United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                                  12030 Sunrise Valley Drive, Suite 230
                                        Reston, Virginia 20191

                                                                                   April 12, 2007

                                    AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Christina M. Bruner
           Director of External Audits

Subject:   Audit on the U.S. Fish and Wildlife Service Federal Assistance Program
           Grants Awarded to the State of Maine, Department of Marine Resources,
           From January 1, 2004, Through December 31, 2005 (No. R-GR-FWS-0015-2005)

        This report presents the results of our audit of costs incurred by the State of Maine
(State), Department of Marine Resources (Department), under grants awarded by the U.S. Fish
and Wildlife Service (FWS). The FWS provided the grants to the State under the Federal
Assistance Program for State Wildlife and Sport Fish Restoration (Federal Assistance Program).
The audit included claims totaling approximately $2.0 million on the grants awarded for calendar
years (CYs) 2004 and 2005 (see Appendix 1). The audit also covered Department compliance
with applicable laws, regulations, and FWS guidelines, including those related to the reporting of
program income.

       We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We did, however, question $1,632 (federal share) of indirect costs
because the Department did not always use the proper indirect cost rate for Federal Assistance
Program reimbursement claims.

        We provided a draft of the report to FWS and the Department for response. This report
includes a summary of Department and FWS Region 5 responses after the recommendations, as
well as our comments on the responses. We list the status of the recommendations in Appendix 2.

       Please respond in writing to the finding and recommendations included in this report by
July 11, 2007. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader, Mr.
Robert Leonard at 916-978-5646, or me at 703-487-5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service
                                              Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Federal Assistance Program for State Wildlife and Sport Fish
Restoration. Under the Federal Assistance Program, FWS provides grants to states to restore,
conserve, manage, and enhance their sport fish and wildlife resources. The Acts and federal
regulations contain provisions and principles on eligible costs and allow FWS to reimburse the
states up to 75 percent of the eligible costs incurred under the grants. The Acts also require that
hunting and fishing license revenues be used only for the administration of the state fish and
wildlife agency.2 Finally, federal regulations and FWS guidance require states to account for any
income they earn using grant funds.

Objectives

Our audit objectives were to determine whether the Department:

        incurred the costs claimed under Federal Assistance Program grants in accordance with
        the Acts and related regulations, FWS guidelines, and the grant agreements and

        reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $2.0 million on 10 FWS grants that were
open during CYs 2004 and 2005 (see Appendix 1). We performed our audit at Department
headquarters in Hallowell and West Boothbay Harbor, Maine. We performed this audit to
supplement, not replace, the audits required by the Single Audit Act Amendments of 1996 and
by Office of Management and Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and conducted other auditing
procedures as necessary under the circumstances. Our tests and procedures included:

       examining the evidence that supports selected expenditures charged to the grants by the
       Department;


1
 As amended 16 U.S.C. §§ 669 and 777, respectively.
2
 The Department of Marine Resources does not sell any sport fishing licenses. As a result, we did not need to
address the issue of whether license revenues were used solely for sport fish restoration activities.



                                                      2
       interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable; and

       reviewing transactions and supporting documentation related to purchases, other direct
       costs, drawdowns of reimbursements, in-kind contributions, and program income.

We also identified the internal controls over transactions recorded in the labor accounting system
and tested the operation and reliability of those controls. Based on the results of our initial
assessment, we assigned a level of risk to the system and selected a judgmental sample of
transactions for testing. We did not project the results of tests to the total population of recorded
transactions nor did we evaluate the economy, efficiency, or effectiveness of Department
operations.

Prior Audit Coverage

On May 24, 2002, we issued, “Final Agreed-Upon Procedures Report on Costs Claimed by the
State of Maine Department of Marine Resources, Under Federal Aid Grants from the U.S. Fish
and Wildlife Service from July 1, 1996 to June 30, 1998” (Report No. 2002-E-0004). The report
did not contain any findings or recommendations.

We also reviewed Maine’s Comprehensive Annual Financial Reports and Single Audit Reports
for the State’s fiscal years (SFYs) ended June 30 of 2004 and 2005. None of these reports
contained any findings that would directly impact the Department’s Federal Assistance Program
grants or programs under the grants. In addition, the Department’s Sport Fish Restoration
Program was not selected for compliance testing in either the SFY2004 or 2005 Single Audits.




                                              3
                                      Results of Audit

Audit Summary
We found, in general, that the Department incurred the costs claimed under Federal Assistance
Program grants in accordance with the Acts and related regulations, FWS guidelines, and the
grant agreements, and that the Department did not report or earn program income. We did,
identify one finding involving questioned costs of $1,632 (federal share) due to the use of the
wrong indirect cost rate. We discuss this finding in more detail in the Finding and
Recommendations section.

Finding and Recommendations
A.     Questioned Costs: Incorrect Indirect Cost Rate Used — $1,632

       The Department did not always use the proper indirect cost rates for calculating its
       Federal Assistance Program reimbursement claims. The Department’s indirect cost rates
       are negotiated and approved on a fiscal year basis, which runs July 1 through June 30.
       However, its Federal Assistance Program grants are awarded on a calendar year basis.
       The Department used the same indirect cost rate to claim grant reimbursements for the
       entire grant period instead of the rates that were negotiated for the applicable fiscal years.
       Department officials told us they believed, incorrectly, that the indirect cost rate in effect
       at the time the grant was awarded should be used throughout the grant period. As a
       result, the total grant outlays on the CY2004 and 2005 financial status reports included
       reimbursements for indirect costs that were based on the incorrect indirect cost rates.

       Office of Management and Budget Circular A-87 (recently codified as 2 C.F.R. § 225)
       requires government entities to prepare an indirect cost rate proposal for allocating
       indirect costs to federal programs. The regulations require each state agency to submit a
       certified indirect cost rate proposal each fiscal year to its cognizant federal agency as a
       condition for seeking reimbursement of indirect costs under its federal grants.

       The Department negotiated indirect cost rate agreements with the U.S. Department of
       Health and Human Services for July 1 through June 30 2004, 2005, and 2006 of 18.9
       percent, 30 percent, and 29.1 percent, respectively. Indirect costs are calculated by
       applying these rates to total direct costs, less capital expenditures.

       For the period July 1, 2005, through December 31, 2005, the Department claimed indirect
       costs using the 30 percent rate negotiated for SFY2005 rather than the 29.1 percent rate
       negotiated for SFY2006. The 30 percent rate was only applicable for the period
       January 1, 2005, through June 30, 2005. As shown in the following table, the
       Department claimed $3,263 ($1,632 federal share) in indirect costs above what they were
       entitled to under the CY2005 grants.




                                             4
      Grant                   Correct Amount,            Federal             Questioned
     Number       Claimed        Per Audit    Difference  Share                Costs
F-40-T-12         $26,850         $26,407         $443 50 percent                $221
F-41-R-12          44,823          44,068          755 50 percent                 378
F-42-R-8           53,605          52,692          913 50 percent                 457
F-43-R-6           62,551          61,399        1,152 50 percent                 576
Totals                                          $3,263                         $1,632

We did not question the indirect costs claimed for the CY2004 grants because the
Department did not claim all of the indirect costs it could have claimed for the period
July 1, 2004, through December 31, 2004.

Subsequent to our audit fieldwork, Department officials told us that they agreed with the
finding and were in the process of submitting corrections to FWS.

Recommendations:

We recommend that FWS require the Department to:

1. resolve the $1,632 of excess indirect costs that were claimed under the CY2005
   grants and

2. develop procedures to ensure it uses the approved indirect cost rate(s) for the
   appropriate fiscal year(s) in its future claims for reimbursements under Federal
   Assistance Program grants.

Department Response

Department officials concurred with the recommendations and stated that the excess
indirect cost reimbursements of $1,632 were electronically returned to FWS. They also
sent to FWS the revised financial status reports for the affected grants. Finally, they
stated that internal procedures have been revised and implemented to account for indirect
cost rate changes that occur within the grant award period.

FWS Response

FWS Region 5 management concurred with the recommendations and stated that they
received and approved the revised financial status reports reflecting the reimbursements.
Additionally, FWS officials stated that the $1,632 of questioned costs was credited back
to the Sport Fish Restoration Program. The officials believe these actions satisfy
recommendation one. They will consider recommendation two satisfied upon receipt of
the written revised procedures.




                                     5
OIG Comments

FWS Region 5 management concurred with the recommendations. Based on the
responses and documentation provided by FWS and the Department, we consider
recommendation one resolved and implemented. While the Department has taken steps
to revise their internal procedures, additional information is needed in the corrective
action plan, including:

       supporting documentation for revised procedures;
       the actions taken;
       the titles of officials responsible for implementation; and
       verification that FWS headquarters officials reviewed and approved of actions
       taken by the Department.




                                    6
                                                                                            Appendix 1


                           MAINE DEPARTMENT OF MARINE RESOURCES
                           FINANCIAL SUMMARY OF REVIEW COVERAGE
                          JANUARY 1, 2004 THROUGH DECEMBER 31, 2005

                                                                                Questioned Costs
                                                                        1
     Grant Number            Grant Amount            Costs Claimed             Total     Federal Share
     F-29-E-18                  $310,194                   $245,423
     F-29-E-19                   340,958                    340,958
     F-40-T-11                   109,668                    102,154
     F-40-T-12                   121,110                    116,348             $443           $221
     F-41-R-11                   203,726                    179,178
     F-41-R-12                   221,398                    194,234              755            378
     F-42-R-7                    214,968                    195,115
     F-42-R-8                    257,640                    232,289              913            457
     F-43-R-5                    179,968                    167,319
     F-43-R-6                    301,340                    271,053             1,152           576
       Totals                 $2,260,970                $2,044,071             $3,263        $1,632




1
    Represents total outlays shown on the financial status reports (SF-269).




                                                          7
                                                                           Appendix 2


               MAINE DEPARTMENT OF MARINE RESOURCES
            STATUS OF AUDIT FINDING AND RECOMMENDATIONS


Recommendations               Status                        Action Required
      A.1          Resolved and implemented.       No further action is required.
      A.2          FWS management concurred        Additional information is needed in
                   with the recommendation,        the corrective action plan, including
                   but additional information is   the actions taken or planned to
                   needed.                         implement the recommendation,
                                                   targeted completion date(s), the title
                                                   of official(s) responsible for
                                                   implementation, and verification that
                                                   FWS officials reviewed and
                                                   approved of actions taken or planned
                                                   by the Department. We will refer
                                                   the recommendation if not resolved
                                                   and/or implemented at the end of 90
                                                   days (after July 11, 2007) to the
                                                   Assistant Secretary for Policy,
                                                   Management and Budget for
                                                   resolution and/or tracking of
                                                   implementation.




                                   8
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
